OIG Audit Report GR-30-01-007
Office of Community Oriented Policing Services
Grants to the Norfolk Police Department
Norfolk, Virginia
Audit Report GR-30-01-007
July 6, 2001
Office of the Inspector General

Executive Summary
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Norfolk Police Department (NPD).  The purpose of the grants was to enhance community policing.  The NPD was awarded a total of $3,984,965 to hire 57 sworn police officers under the Accelerated Hiring, Education, and Deployment (AHEAD), $1,121,892 to redeploy 17.6 sworn officers full-time equivalent (FTE) under the Making Officer Redeployment Effective (MORE) program of 1995, $495,000 to redeploy 21.2 FTEs under the MORE program of 1996, and $540,000 to redeploy 18.2 under the MORE program of 1998.  

	We reviewed the NPD's compliance with eight essential grant conditions.  We found that the NPD complied with requirements for budgeting, hiring, matching, reimbursement and community policing practices.  However, we found weaknesses in other areas as identified below.  As a result, we questioned $493,992. 1

For the redeployment grants, the NPD did not redeploy all of the required positions.  We confirmed 8.3 of the required 17.6 positions.  As a result, we questioned $493,992 in costs charged to the redeployment grant.

	The status reports were either not timely, or not accurate, or not filed.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I. 






Footnote

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and funds to better use.